      Memorandum from the Office of the Inspector General



      May 18, 2007

      John E. Long, Jr., WT 7B-K

      FINAL REPORT – INSPECTION 2007-505I – REVIEW OF TVA TUITION
      REIMBURSEMENTS



      Attached is the subject final report for your review and final action. Your written
      comments, which addressed your management decision and actions planned or
      taken, have been included in the report. Please notify us when final action is
      complete.

      Information contained in this report may be subject to public disclosure. Please advise
      us of any sensitive information in this report which you recommend be withheld.

      If you have any questions, please contact Rick C. Underwood, Project Manager, at
      (423) 751-3108 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections,
      at (423) 751-7821. We appreciate the courtesy and cooperation received from your staff
      during the audit.




for   Ben R. Wagner
      Assistant Inspector General
       (Audits and Inspections)
      ET 3C-K

      RCU:BKA
      Attachment
      cc (Attachment):
            Tom D. Kilgore, WT 7B-K
            Richard W. Moore, ET 4C-K
            Michael A. Purcell, LP 5B-C
            Emily J. Reynolds, OCP 1L-NST
            Phillip L. Reynolds, LP 3A-C
            OIG File No. 2007-505I
            Tennessee Valley Authority
            Office of the Inspector General


Inspection Report



REVIEW OF
TVA'S TUITION
REIMBURSEMENT
PROGRAM




                                  2007-505I
                                May 18, 2007
Office of the Inspector General                                                    Inspection Report



TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................. i

BACKGROUND ................................................................................. 1

OBJECTIVE, SCOPE, AND METHODOLOGY .......................... 3

FINDINGS ........................................................................................... 5
   NONCOMPLIANCE WITH TUITION REIMBURSEMENT
   BUSINESS PRACTICE...................................................................... 5

   CONTROL IMPROVEMENT OPPORTUNITIES................................ 7

RECOMMENDATIONS .................................................................... 9


APPENDIX

MEMORANDUM DATED MAY 7, 2007, FROM JOHN E. LONG, JR.,
TO BEN R. WAGNER




Inspection 2007-505I
Office of the Inspector General                                                Inspection Report


EXECUTIVE SUMMARY
Full-time annual employees are eligible to participate in TVA’s Tuition
Reimbursement Program (TRP). The use of the program has grown
significantly since Fiscal Year (FY) 2003. Payments to employees
increased from about $339,000 in FY 2003 to over $985,000 in FY
2006.i

The objective of our review was to assess compliance with TRP policies
and procedures. To achieve our objective, we reviewed TRP
documentation, payments, files, and TVA system data for the period
October 1, 2003, through September 30, 2006. In summary, we
identified opportunities for improvement in TRP program controls.
Specifically, we noted:

•      Instances of noncompliance with Business Practice18 (BP18),
       “Tuition Reimbursement,” related to (1) required documentation for
       program approvals, (2) evidence of satisfactory completion,
       (3) approval for cost increases, (4) reimbursements for non-
       allowable expenses, and (5) the requirement to drop inactive
       participants.
•      Opportunities to improve controls over the program including
       (1) requiring all participants to sign service agreements,
       (2) follow-up on satisfactory course completion when tuition is
       preapproved, (3) ensuring maximum reimbursements are not
       exceeded, and (4) clarifying acceptable coursework and active
       participation.

We recommended the Chief Administrative Officer and Executive Vice
President (EVP), Administrative Services, (1) reinforce the importance of
compliance with BP18 with an emphasis on employees and
managers/supervisors fulfilling the roles prescribed and (2) strengthen
BP18 to address identified control improvement opportunities.

Administrative Services generally agreed with our recommendations,
and we concur with TVA management’s planned actions.




i
    TRP reimbursements were determined using information captured in the TVA data depository,
    The Information Factory-Payroll (TIFP). All off-cycle payments for tuition reimbursement were
    not included in TIFP data and, as a result, these amounts may be understated.


Inspection 2007-505I                                                                      Page i
Office of the Inspector General                                              Inspection Report


BACKGROUND
Full-time annual employees are eligible to participate in TVA’s Tuition
Reimbursement Program (TRP). The use of the program has grown
significantly since Fiscal Year (FY) 2003. Payments to employees
increased from about $339,000 in FY 2003 to over $985,000 in FY
2006.1

                          Tuition Reimbursements by Fiscal Year

    1,200,000


                                                                          985,362
    1,000,000



     800,000
                                                           707,202
                                              636,217

     600,000


                383,438
     400,000                    339,193



     200,000



           0
                 2002             2003         2004         2005           2006



TVA Business Practice 18 (BP18), Tuition Reimbursement, states that
“TVA seeks to support employee education activities so that employees
can fully contribute their talents to achieve TVA's vision and business
objectives and to provide employees with lifelong learning. This
business practice establishes the process for requesting, approving, and
reimbursing allowable expenses for all employees who participate in this
program and who receive reimbursement.” BP18 includes:

•     A Supervisor’s Decision Model (SDM) which is to be used in
      approving/denying requests for TRP participation. According to
      BP18, the model is an aid or guide to be used with TVA
      management’s judgment “in evaluating participation requests to
      ensure it is business aligned and there is an anticipated return on
      investment for TVA.”



1
  TRP reimbursements were determined using information captured in the TVA data depository,
  The Information Factory-Payroll (TIFP). All off-cycle payments for tuition reimbursement were
  not included in the TIFP data and, as a result, these amounts may be understated.
Inspection 2007-505I                                                                    Page 1
Office of the Inspector General                              Inspection Report


•     A Responsibility Chart which identifies processes, procedures, and
      controls/responsibilities applicable to the (1) approval process;
      (2) prepayment process; (3) employee implementation of the
      academic plan; and (4) reimbursement plan. In the chart, the
      responsibilities are defined by employee, manager, vice president,
      Employee Technical Training and Organizational Effectiveness
      (ETTOE), and Employee Accounting.

BP18 also defines the scope and specific requirements of the TRP.
Specifically:

•   Tuition reimbursement covers degrees and courses for professional
    development which relate to current or future core business and
    workforce needs as indicated in the TVA Integrated Staffing Plan and
    the tuition reimbursement SDM.
•   Employees who are on the manager/specialist schedule and have
    been approved for a bachelor’s, master’s or postgraduate degree are
    required to sign a two-year service agreement. (Employees on the
    excluded schedule may be required by their organization to sign a
    two-year service agreement.) Employee Accounting will administer
    the service agreements.
•   Participants in the TRP must use accredited academic institutions or
    programs to pursue (1) an associate’s, bachelor’s, master’s, or
    postgraduate degree or (2) professional development.
     Form 17404, Request for Tuition Reimbursement Program
      Participation, must be completed by the employee and signed by
      the applicable manager and vice president. Information on the
      form includes the accredited educational institution, the degree or
      professional development sought, and an estimate of allowable
      expenses.
     Form 17404A, Request for Tuition Reimbursement Program,
      must be completed by the employee and signed by the manager.
      Information requirements on the form include the classes taken
      and a summary total for the allowable expenses to be
      reimbursed.
•   Upon completion of TRP-approved courses, an employee may
    request reimbursement for tuition expenses if the course has been
    completed with a grade of (1) "C" or better for an undergraduate
    course, (2) "B" or better for a graduate course, or (3) "Pass" if the
    course has a Pass/Fail grade.
•   “Allowable Expenses” are limited to a total of $25,000 for a
    bachelor’s degree (including any reimbursements for an associate

Inspection 2007-505I                                                   Page 2
Office of the Inspector General                                              Inspection Report


    degree) and $21,000 for a master’s degree. Reimbursable expenses
    include:
        Tuition (Both traditional and nontraditional)
        Registration fees
        Laboratory fees
        Equivalency examinations resulting in credit received
        Cost of recording credits
        Activity fees
        Graduation fees
        Textbooks
        Other fees as approved by manager

In reviewing the “Roles and Responsibilities” set forth in BP18, we noted
that the majority of the responsibilities lie with the employee and
supervisors/managers for ensuring compliance with the program.


OBJECTIVES, SCOPE, AND METHODOLOGY
The objective of our review was to assess compliance with the tuition
reimbursement policies and procedures. This included the approval
and disbursement of tuition reimbursement funds to TVA employees,
along with the workforce retention requirement for such employees after
graduation. The scope of the inspection included TRP payments and
participation during FY 2004 through FY 2006.2 To achieve our
objective, we:

•   Obtained an understanding of the controls and processes relating to
    the TRP by:
     Interviewing representatives of TVA’s ETTOE, Controller, and
      Human Resource (HR) organizations.
     Reviewing BP18, including the SDM and Responsibility Chart.
•   Tested key control activities identified by BP18. Specifically, we:
     Obtained access to payroll data captured in TIFP and identified
      the employees that were reimbursed through the TRP. From the
      population of 1,540 payments, we randomly selected 96
      payments, totaling about $140,000, and reviewed ETTOE’s files.
     Identified TRP participants through analysis of Automated
      Training Information System (ATIS) and the Human Resource
      Information System (HRIS) data. From the population of 372
2
  We used statistical attribute sampling methodology to identify sample sizes, and the sample
  selections were made randomly. Each sample size was based on a three percent maximum
  tolerable error rate and a five percent risk of incorrect acceptance.
Inspection 2007-505I                                                                     Page 3
Office of the Inspector General                                            Inspection Report


         participants, we randomly selected 87 employees and reviewed
         ETTOE’s files for each participant.

For both the payment and participant sample, we verified that:

    1. Completed Forms TVA 17404 were on file and included the
       required approvals to allow participation in the program.
    2. A current curriculum was on file which showed TRP-approved
       courses and supported reimbursements.
    3. A copy of an official transcript or grade report showing grades
       after completion of course was submitted for allowable expenses
       to obtain reimbursement.

For the payment sample, we also verified that Forms 17404A were on
file and included courses taken, tuition cost to be reimbursed, and a
total of other expenses to be reimbursed. We also determined whether
reimbursed expenses were supported by detailed receipts showing
specific items purchased.

•   Identified employees through analysis of HRIS data who have
    graduated with their degree. We found 19 have graduated within
    the scope of our review. 3 For these graduates, we:
     Verified that a copy of a diploma was on file.
     Compared their original TRP cost estimate with actual
      reimbursements to determine if a revised 17404 should have
      been filed. We used 10 percent as our criteria.
     Compared their last reimbursement date to termination dates
      identified in HRIS. For management/specialist schedule
      employees with termination dates less than 2 years after the
      employee’s last payment received date, we attempted to verify
      that TVA had been reimbursed for their educational expenses.
•   Identified the last reimbursement payments for the 372 participants
    in our review period and selected a sample of 87 participants for
    review. For these individuals, we determined if they had terminated
    employment with TVA and, if so, whether they had been required to
    sign and successfully completed a two-year service agreement.
•   Used Audit Command Language (ACL) software to determine if all
    employees identified as active in the TRP had received a TRP


3
  We were told by the ATIS System Manager, HR, that data has not been entered consistently
  into ATIS and HRIS because of the number of people who have cycled through the job duties.
  Therefore, we were unable to validate the accuracy and completeness of our population of
  graduates.
Inspection 2007-505I                                                                  Page 4
Office of the Inspector General                             Inspection Report


    reimbursement within the last 12 consecutive months. The data
    analyzed was extracted from TIFP, ATIS, and HRIS.

This inspection was conducted in accordance with the PCIE “Quality
Standards for Inspections.”


FINDINGS
We assessed compliance with theTRP’s policies and procedures. In
summary, we found control of the program could be improved.
Specifically, we found:

•    Instances of noncompliance with BP18.
•    Opportunities to improve controls over the program.

NONCOMPLIANCE WITH TUITION REIMBURSEMENT
BUSINESS PRACTICE

Our test results are noted in the Table on the following page.




Inspection 2007-505I                                                  Page 5
Office of the Inspector General                                                            Inspection Report



             Key Control Activity                                          Test Results
 A completed Form 17404 containing the              We found a Form 17404 was on file and contained
 required manager and vice president                approvals for 179 of the 183 sample selections we
 approvals must be submitted by the                 reviewed.
 employee.
 A completed Form 17404A must be                    We found a Form 17404A was on file and contained
 submitted to obtain reimbursement and list         required information for 91 of the 96 payments we
 the course taken, tuition cost, and total of       reviewed. However, we also found:
 other expenses.
                                                    o   Several examples of employees being reimbursed for
                                                        expenditures not covered in BP18’s definition of
                                                        “allowable expenses.” Some examples included
                                                        reimbursements for a laptop, parking, clothing,
                                                        malpractice insurance, vaccinations, and finance
                                                        charges applicable to credit card statements —
                                                        including finance charges not applicable to charges
                                                        under the TRP.

                                                    o   Many instances where supporting receipts provided
                                                        only a summary total of the expense incurred. An
                                                        itemized receipt which would facilitate the verification
                                                        of allowable expenses was not found.

 A current curriculum must be on file               For 122 of the 183 sample selections reviewed, we did
 supporting payment for employees active in         not find an update of the employee curriculum. (We also
 the TRP. BP18 states that, “Employees              noted 8 employees who were reimbursed for classes not
 should annually revise/update their                on the curriculum filed.)
 curriculum by using Personal Schedule, and
 Employee SelfService option. The employee
 marks up a hard copy, obtains their
 supervisor’s signature and sends it to
 Employee Technical Training and
 Organizational Effectiveness.”
 A copy of an official transcript or grade report   We found 126 of the 183 sample selections were
 showing grades after completion of course          reimbursed with nonofficial grade documentation.
 must be submitted with Form 17404A.

 Graduates must provide proof of degree             Using HRIS data, we identified 19 graduates applicable
 completion to ETTOE.                               to our review period. We found that 9 did not have a
                                                    diploma on file. We also noted that a required 17404 and
                                                    a 17404A were not on file for 1 of the 19.
 If changes in curriculum result in a substantial   For the 19 graduates we identified, applicable to our
 increase in expenses, a revised 17404 must         review period, we found 3 exceeded the original estimate
 be completed and approved by the manager           by more than 10 percent. The actual amounts
 and vice president.                                reimbursed were over the original estimate by 14.89
                                                    percent, 18.68 percent, and 22.19 percent, respectively.
                                                    Revised forms were not on file.
 “An employee who has not successfully              We noted 369 employees identified in the ATIS system
 completed a course in 12 consecutive               that had received a reimbursement during our review
 months will be dropped from the program,           period. Of these 369, 154 or 42 percent had not received
 unless there is a compelling reason for the        reimbursement in the last 12 months. We also found that
 lack of progress, such as personal illness,        363 were classified as active participants in the TRP as
 family crisis, work related.” This decision will   of December 13, 2006.
 be made in consultation with the employee,
 supervisor, and human resource consultant.         Further analysis of ATIS data noted that 760 employees
 The employee may reapply at a later date.          were currently classified as active in the program. As a
                                                    result, we conclude that there are another 397 employees
                                                    identified as active in the TRP that have not completed a
                                                    course in the last 12 months or received a payment within
                                                    our review period.




Inspection 2007-505I                                                                                    Page 6
Office of the Inspector General                                         Inspection Report


CONTROL IMPROVEMENT OPPORTUNITIES
During the course of our review, we also identified potential
opportunities for improvement in the controls over the TRP.
Specifically:

• There is currently no process in place to ensure that those
  employees receiving prepayment of tuition and books earn the
  required grade for their coursework.
• There appears to be no control in place to ensure that
  reimbursements do not exceed policy maximums for associate,
  bachelor, or graduate degrees.
• No process appears to be in place for ETTOE or Employee
  Accounting to be notified prior to a participant’s termination from TVA
  employment.
• The service agreement for managers/specialist and excluded
  schedule employees who are pursuing a degree requires them to
  “regularly attend classes, perform satisfactorily, and diligently pursue
  completion of this program.” A participant may choose to discontinue
  under certain circumstances. However, there is no reimbursement
  provision for failure to fulfill this part of the agreement.
• Our data analysis also showed that over 65 percent of tuition
  reimbursements were made to employees that are not
  manager/specialist schedule employees and therefore not required
  by policy to sign a service agreement prior to entering the program
  and receiving educational reimbursements. Based on payments
  made through TVA’s payroll system, we found the following
  percentages of dollars reimbursed by employee class.4

                                  FY 02    FY 03   FY 04     FY 05    FY 06   Totals

    Manager/Specialist Schedule
                                  34.6%   34.0%    32.0%     32.6%    36.3%   34.1%
    Reimbursements
    Other Reimbursements          65.4%   66.0%    68.0%     67.4%    63.7%   65.9%


• We identified the last reimbursement payments made to individual
  employees and selected a sample of 87 for review. Of these 87
  payments, 2 were made to individuals who left TVA before two years
  had passed from their last payment. Of these, 1 was a
  manager/specialist schedule employee. Neither Employee
  Accounting nor ETTOE were able to provide us with any

4
  Payroll earnings codes EDU (nontaxable) and EDT (taxable) for TRP reimbursements were
  used to capture the payroll data.
Inspection 2007-505I                                                               Page 7
Office of the Inspector General                           Inspection Report


    documentation of a service agreement or documentation indicating
    that this employee reimbursed TVA for their educational expenses.
• The SDM provides that the TRP coursework must align with one of
  the following concentration areas: (1) Engineering; (2) Information
  Technology; (3) Management/Business/Human Resources;
  (4) Police Science; and (5) Sciences. BP18 states that the work
  must relate to future core business and workforce needs. We noted
  some instances which suggest further clarification on the
  concentration areas may be needed.
        A TVA Nuclear unit operator seeking a bachelor of science in
         Geosciences. Some examples of classes taken included
         Meteorology, Climatology, Applied Climatology, Radar
         Meteorology, Severe Weather, Weather Prediction 1 and 2, and
         Synoptic Meteorology 1 and 2.
     A Fossil Power Group unit operator seeking an associate’s
      degree in Criminal Justice.
•   Classes taken with approval as “professional development” classes
    through the TRP are not subject to annual or overall reimbursement
    dollar amount caps and do not require continued progress toward a
    degree. Therefore, by taking classes as “professional development”
    which can also be used to count toward a degree, employees could
    circumvent dollar limits on degree reimbursement.
•   A detailed review of elective classes may improve benefits to TVA
    and/or reduce the taking of unnecessary classes. For instance, we
    noted an example where elective classes being taken appeared
    inappropriate for TVA reimbursement based on prior academic
    achievement. Specifically:
     An employee was reimbursed for elective courses, including
      Guitar and Death and Dying, while pursuing an associate’s
      degree in Contemporary Management. Information in
      PeopleWarehouse indicates that this employee already had
      attained a master of science in Civil Engineering and a PHD in
      Civil Engineering years earlier from Arizona State University.
      In addition, the employee has another associate’s degree from
      the same community college at which the current degree was
      being pursued.




Inspection 2007-505I                                                Page 8
Office of the Inspector General                              Inspection Report


RECOMMENDATIONS
We recommended the EVP, Administrative Services:

1. Reemphasize the importance of compliance with the TRP with an
   emphasis on employees and managers/supervisors fulfilling the
   roles prescribed by BP18.
2. Strengthen the TRP to address identified control improvement
   opportunities.

Management response - The EVP, Administrative Services, provided
comments on the draft report. The EVP, Administrative Services,
generally agreed to implement our recommendations regarding:

•   Reemphasizing the importance of compliance with the TRP with an
    emphasis on employees and managers/supervisors fulfilling the
    roles prescribed by BP18.
•   Strengthening the TRP to address identified control improvement
    opportunities.

Management’s planned actions include:

•   Increasing administrative support between Knoxville and
    Chattanooga to monthly intervals.
•   Exploring the feasibility of an electronic records management
    system to replace all or parts of the current manual processes
    (hard copy files).
•   Developing a management process to accurately track progress and
    completion of all enrollees.
•   Adjusting BP18 to allow greater flexibility in estimating actual TRP
    costs on the front end.
•   Developing a management process requiring tighter control of
    reimbursement documentation not in compliance with BP18 and
    having Disbursement Services return any questionable
    documentation, along with the 17404A, to TRP for closer scrutiny
    and follow-up, if necessary.
•   Revising the SDM to further clarify responsibility of management for
    ultimate approval of all costs and allowable expenses.
•   Requiring the TRP manager to either remove a participant from the
    program, or obtain documentation that justifies the delay, when TRP
    participants are identified as exceeding the 12-month window.
Inspection 2007-505I                                                   Page 9
Office of the Inspector General                             Inspection Report


•   Monitoring approved “prepayment” situations on a case-by-case
    basis to ensure successful completion of coursework.
•   Revising BP18 to place $25,000 spending cap on “nondegree”
    coursework designated as “professional development” that would
    ultimately accrue towards any eventual degree.
•   Revising the SDM to further clarify responsibility of management for
    ultimate approval of all coursework.
•   Adjusting the SDM for graduate business education to align
    approval with Leadership Development and Talent Management.

Auditor’s Comments - We concur with TVA management’s planned
actions to (1) reemphasize the importance of compliance with the TRP
with an emphasis on employees and managers/supervisors fulfilling the
roles prescribed by BP18 and (2) strengthen the TRP to address
identified control improvement opportunities.

One of the control improvement opportunities we identified was to
require all TRP participants, not just manager/specialist schedule
employees, to sign service agreements. Administrative Services does
not plan to implement this control, and their comments stated that:

•   The policy was established to not conflict with labor-negotiated
    agreements with represented employees.
•   To apply a more conclusive standard to broaden a service
    agreement for all employees would be difficult and costly to enforce.

We do not disagree with management’s comments and therefore take
no exception to not requiring all TRP participants to sign service
agreements.




Inspection 2007-505I                                                Page 10
APPENDIX
Page 1 of 4
APPENDIX
Page 2 of 4
APPENDIX
Page 3 of 4
APPENDIX
Page 4 of 4
